Semiannual Report to Congress
        10/01/08 – 3/31/09
       ON THE COVER
President-elect Barack Obama with
   Vice President-elect Joe Biden
       on the Inaugural Train.
       Photographed by
 Bob Johnston, Trains Magazine
                                                                                          Office of Inspector General




                    The OIG Vision                                                The OIG Mission

The Office of Inspector General (OIG) strives to provide        The OIG will conduct and supervise independent
Amtrak’s employees, its customers, the public, and the          and objective audits, inspections, evaluations, and
Congress with the highest quality service and programs          investigations relating to agency programs and operations;
through vigilance, timely action, accuracy, and an overall      promote economy, effectiveness and efficiency within
commitment to excellence across the broad range of OIG          the agency; prevent and detect fraud, waste, and abuse
responsibilities.                                               in agency programs and operations; review security and
                                                                safety policies and programs, and, review and make
                                                                recommendations regarding existing and proposed
                                                                legislation and regulations relating to Amtrak’s programs
                                                                and operations.



                               The Inspector General’s Guiding Principles

                                     Amtrak’s Office of Inspector General (OIG) will:
H	Work with Amtrak’s chairman, the board of directors, and the Congress to improve program management.

H	Maximize the positive impact and ensure the independence and objectivity of the OIG audits, investigations, inspections,
  and evaluations, and other reviews.
H	Use OIG audits, investigations, inspections, and evaluation, and other reviews to improve integrity and recommend
  changes to prevent fraud, waste and abuse.
H	Be innovative and question existing procedures and suggest improvements.
H	Build relationships with program managers based on a shared commitment to improving program operations
  and effectiveness.
H	Strive to improve the quality and efficacy of reports and recommendations.




                                                                                                                                 Office of
                                                                                                                             Inspector General
                                                                                                                                     3
    Letter to the Board of Directors


                                                                        NATIONAL RAILROAD PASSENGER CORPORATION
                                                                             Office of Inspector General, 10 G Street, NE, 3W-300, Washington, DC 20002-4285




                    March 31, 2009

                    Honorable Thomas Carper
                    Chairman
                    Amtrak Board of Directors

                    Dear Mr. Chairman:

                    On behalf of the Amtrak Office of Inspector General (OIG), I am pleased to present this Semiannual
                    Report to Congress. The OIG Report highlights significant audits, evaluations, and investigations for the
                    six-month period ending March 31, 2009.

                    It is the OIG’s responsibility to assist the Board and management in making improvements in Amtrak’s
                    core business operations which will improve the safety, reliability, and effectiveness of Amtrak services
                    to the travelling public. The current semiannual report identifies some of the recent recommendations that
                    the OIG has made which have resulted in cost savings, improved management policies and procedures,
                    improved revenues, less cost, and more efficient and effective business processes.

                    In executing its FY 2009 audit plans, the OIG continued its reviews of Amtrak’s procurement operations,
                    payments and billings to vendors providing services to Amtrak, and the associated internal controls
                    for physical inventory. We also reviewed numerous payroll activities, with special emphasis for the
                    disbursement of overtime wages. OIG investigators and special agents opened 78 new cases and closed
                    63 cases during the reporting period; 330 investigations remain active as of March 31.

                    The OIG obtained nine criminal indictments, five criminal convictions/pleas, and one declination to
                    prosecute; 15 other cases are pending prosecutorial review. As you will see in our detailed reports, our
                    casework continues to reflect the need for Amtrak to protect better its passenger revenues, and the OIG is
                    working with management to improve controls over the $1.4 billion revenue stream.

                    The OIG Inspections and Evaluations group is continuing to facilitate numerous initiatives to improve
                    the reliability and availability of Amtrak’s rolling stock (passenger cars and locomotives). We have been
                    concentrating our work in overseeing the introduction of reliability-centered maintenance practices and
                    we are working very closely with management to oversee and better monitor the operations of the Acela
                    product line. During this reporting period, we made recommendations to management regarding Acela
                    equipment assignments which, when fully implemented, could result in up to $9 million in additional
                    revenue annually.

                    While continuing to conduct our normal oversight of Amtrak’s programs and operations for this Fiscal
                    Year, the OIG, like Amtrak, has had to rapidly make new plans to accommodate Amtrak’s inclusion in the
                    American Recovery and Investment Act of 2009 (“Recovery Act”). Under the wide ranging “stimulus”
                    bill, Amtrak will be receiving almost $1.3 billion over the next two years to initiate and accelerate work
                    on the railroad, which will create jobs and further the statutory goals and objectives of intercity passenger


    Office of
Inspector General
        4
                                                                        Letter to the Board of Directors




Honorable Thomas Carper
March 31, 2009
Page 2




rail services. The OIG has been provided $5 million to oversee the stimulus spending and to report
independently on compliance with the goals of the Recovery Act.

As we have discussed, the Recovery Act represents a significant opportunity for Amtrak to accelerate
capital work in a number of key areas, including badly needed investments in track, bridges, facilities, and
passenger cars and locomotives. Amtrak’s current plans are to spend about 66 percent of stimulus dollars
on infrastructure and engineering projects, 15 percent on security and life-safety projects, 11 percent on
Amtrak’s fleet, and the balance on information technology, finance, and other support functions. The OIG
will work to ensure that Amtrak uses stimulus funds in a way which complies fully with the transparency
and accountability requirements of the Recovery Act and which furthers the Board’s policy directives to
improve Amtrak’s programs and operations.

In addition to the direct appropriations made available to Amtrak through the Recovery Act, Amtrak is also
eligible to participate in, both independently and in conjunction and collaboration with States, a new and
unprecedented high speed rail program. The Recovery Act sets aside $8 billion for a number of high speed
rail initiatives, which President Obama’s Administration has stated will revolutionize and reinvigorate
passenger rail services in the United States. Perhaps more so than the funds directly appropriated for
Amtrak, this new investment opportunity for higher speed rail and corridor development is a sea change in
the country’s national transportation policy.

The OIG encourages Amtrak to act quickly to take advantage of the unique opportunities to position and
leverage Amtrak’s resources, its people and other assets, and to participate as much as possible in high
speed rail services. We will be assisting Amtrak and the Board, where appropriate, by independently
assessing the risks and opportunities, and the associated costs and benefits, of Amtrak’s investments in
these initiatives.

Given the considerable challenges and opportunities that have been presented to Amtrak over the past
several months, it is important that the OIG have a productive and effective working relationship with the
Board of Directors. We will work closely with you and the Board to ensure that the Office can accomplish
its statutory mission consistent with the best practices prevalent in the OIG community and in a way which
contributes to safer, more reliable, and more cost effective services for the traveling public.

Respectfully,



Fred E. Weiderhold, Jr.
Inspector General




                                                                                                                   Office of
                                                                                                               Inspector General
                                                                                                                       5
                                           Table of Contents




Amtrak Profile	                                      8

Office of Inspector General Profile	                 9

Legislative Update	                                 10

Significant Audit Activities	                       11

Significant Activities: Investigations	             15

Significant Inspections and Evaluations	            21

Performance Measures	                               25

Appendices	                                         27

Reporting Requirement Index	                        34




                                                         Office of
                                                     Inspector General
                                                             7
    Amtrak Profile



                    T
                            he National Railroad Passenger Corporation,             passenger routes then operated by the freight railroad
                            “Amtrak,” is incorporated under the District of         companies were eliminated.
                            Columbia Business Corporation Act (D.C. Code §
                                                                                    During fiscal year (FY) 2008 Amtrak carried approximately
                    29-301 et seq.) in accordance with the provisions of the
                                                                                    28.7 million passengers on up to 315 daily intercity trains
                    Rail Passenger Service Act of 1970 (Public Law 91-518).
                                                                                    on more than 21,100 route miles serving 513 communities
                    Under the provisions of the Passenger Rail Investment
                                                                                    in 46 states, the District of Columbia, and three Canadian
                    and Improvement Act of 2008 (Public Law 110-432;
                                                                                    provinces. During fiscal year 2008, Amtrak ridership was
                    49 U.S.C. § 24302), Amtrak’s Board of Directors will be
                                                                                    up by more than 11 percent and ticket revenues were up
                    reorganized and expanded to nine members.
                                                                                    by more than 14.2 percent over the fiscal year 2007.
                    The company is operated and managed as a for-
                                                                                    In terms of market-share, Amtrak serves 63 percent
                    profit corporation providing intercity rail passenger
                                                                                    of the combined airline-intercity rail market between
                    transportation as its principal business. Congress created
                                                                                    Washington, D.C., and New York City. More than 800,000
                    Amtrak in 1970 to take over, and independently operate,
                                                                                    people commute every weekday on Amtrak infrastructure
                    the nation’s intercity rail passenger services. Prior to this
                                                                                    or on Amtrak-operated commuter trains around
                    America’s private freight companies ran passenger rail as
                                                                                    the country under contracts with state and regional
                    required by Federal law. Those companies reported they
                                                                                    commuter authorities. Amtrak employs about 18,400
                    had operated their passenger rail services without profit
                                                                                    persons, of whom about 16,000 are agreement covered
                    for a decade or more. With this in mind, when Amtrak
                                                                                    employees. These employees work in on-board services,
                    began service on May 1, 1971, more than half of the rail
                                                                                                        maintenance of way, police, station
                                                                                                        and reservations services, and other
                                                                                                        support areas.
                                                                                                          Amtrak owns the right-of-way of
                                                                                                          more than 363 route miles in the
                                                                                                          Northeast Corridor (NEC; including
                                                                                                          Washington, DC-New York City-
                                                                                                          Boston, Philadelphia-Harrisburg,
                                                                                                          and New Haven, CT-Springfield,
                                                                                                          MA) and 97 miles in Michigan.
                                                                                                          Amtrak owns 105 station facilities,
                                                                                                          and is responsible for the upkeep
                                                                                                          and maintenance of an additional
                                                                                                          181 station facilities and 411
                                                                                                          platforms. Amtrak owns 17 tunnels
                                                                                                          and 1,186 bridges.
                                                                                                          Amtrak owns most of the
                                                                                                          maintenance and repair facilities
                                                                                                          for its fleet of about 2,600 cars
                                                                                                          and locomotives. Outside the NEC,
                                                                                                          Amtrak contracts with freight
                                                                                                          railroads for the right to operate
                                                                                                          over their tracks. The host freight
                                                                                                          railroads are responsible for the
                                                                                                          condition of their tracks and for the
                                                                                                          coordination of all railroad traffic.




    Office of
Inspector General
        8
                                                                          Office of Inspector General Profile



A
          mtrak’s Office of Inspector General (OIG) was       to prevent fraud and abuse; and, reporting violations of
          established as a statutory entity on April 1,       law to the Attorney General and prosecutors. The group
          1989, in accordance with the 1988 amendments        is charged with reviewing and safeguarding Amtrak’s
(P.L. 100-504) to the Inspector General Act of 1978 (P.L.     cash and credit card purchases for transportation and
95-452; 5 U.S.C. Appendix 3). The OIG is an independent       food services on board Amtrak trains.
and objective entity within Amtrak whose mission is to
                                                              Legal Counsel is responsible for providing legal assistance
detect fraud, waste, and misconduct involving Amtrak’s
                                                              and advice to the Inspector General, Audits, Inspections
programs and personnel; to promote economy and
                                                              and Evaluations, and Investigations.  Counsel provides
efficiency in Amtrak operations; and, to keep Congress
                                                              legal and investigatory directions to Investigations,
and the Amtrak Board of Directors fully informed about
                                                              coordinates with outside attorneys including local and
problems and deficiencies, and the necessity for, and
                                                              federal agencies and law enforcement attorneys, and
progress of, corrective action.
                                                              appears in court on behalf of the OIG and its employees.
The OIG investigates allegations of violations of criminal
and civil law, regulations, and ethical standards arising              Inspections and Evaluations:
from the conduct of Amtrak employees in performing
their work. The OIG audits, investigates, inspects, and       Inspections and Evaluations is a hybrid unit whose
evaluates Amtrak operations, policies, and procedures,        staff have specialized skills in engineering, safety,
and assists management in promoting integrity, economy,       labor/employee relations, mechanical maintenance
efficiency, and effectiveness.                                operations, strategic planning, and finance. This group
                                                              conducts targeted inspections and evaluations of Amtrak
Amtrak’s Office of Inspector General is led by Fred E.
                                                              programs, providing assistance to managers in their
Weiderhold, Jr.  The OIG consists of four groups: Audits;
                                                              efforts to determine the feasibility of new initiatives and
Investigations; Inspections and Evaluations; and,
                                                              the effectiveness of existing operating methodologies.
Management and Policy. Audits is headed by Gary E.
Glowacki; Inspections and Evaluations is headed by            The inspection and evaluations process they utilize,
Calvin Evans; Investigations, and legal counsel, is headed    whether requested or mandated, consists of independent
by Colin Carriere; and, Management and Policy is headed       studies and analytical reviews that often serve as the
by Bret Coulson. The OIG has offices in Washington, DC,       cornerstone for strategies to improve cost efficiency and
Baltimore, Wilmington, Philadelphia, New York, Boston,        effectiveness, and the overall quality of service delivery
Chicago, and Los Angeles.                                     throughout Amtrak.

                        Audits:                                           Management
                                                                          Management and
                                                                                     and Policy:
                                                                                         Policy:

Audits is responsible for conducting independent              Management and Policy provides mission and
reviews of Amtrak’s internal controls and recommending        administrative support services to the OIG by managing:
improvements to better safeguard its assets; testing the      budget formulation and execution; policy development;
reliability of financial reporting and providing accounting   training, personnel security; dissemination of OIG
counsel over company operations; reviewing information        information; human resources; and OIG equipment and
technology programs and information security;                 facilities. Management and Policy ensures performance
reviewing procurements and material acquisitions for          quality and compliance with current and emerging
appropriateness of cost, pricing, and compliance with         government regulations, directives, and mandates. The
applicable grant and/or contract terms and conditions;        office is the primary liaison with the U.S. Congress, the
and, monitoring compliance with laws and regulations.         Government Accountability Office, the General Services
                                                              Administration, the Office of Management and Budget,
     Investigations
     Investigations and
                    and Legal
                        Legal Counsel:
                              Counsel:                        and other government departments and agencies.
                                                              Management and Policy has primary responsibility for
Investigations is responsible for investigating various       Amtrak’s security oversight; and, provides oversight on
types of fraud and abuse particularly allegations             the policy, programs, and procedures for Amtrak’s Office
of financial wrongdoings, kickbacks, construction             of Security Strategy and Special Operations, and the
irregularities, bribery, and false claims; performing         Amtrak Police Department.
reviews of Amtrak’s safety and security programs;
recommending to the company better internal controls



                                                                                                                                Office of
                                                                                                                            Inspector General
                                                                                                                                    9
    Legislative Update




                      Legislation and
                      Legislation and Regulations
                                      Regulations Reviewed
                                                  Reviewed                        for IG Oversight of $1.3 billion in Amtrak Recovery Act
                                                                                  funding.
                    Section 4(a) of the Inspector General Act requires the
                                                                                  The OIG recommended to Congress that Amtrak be granted
                    Inspector General to review existing and proposed
                                                                                  greater access to the General Services Administration
                    legislation and regulations relating to Amtrak’s
                                                                                  programs and services. This recommendation was enacted
                    programs and operations and to make recommendations
                                                                                  into law on October 14, 2008 as part of the Passenger
                    concerning their impact. The OIG uses results from its
                                                                                  Rail Investment and Improvement Act of 2008.
                    audits, inspections and evaluations, investigations,
                    and legislative experiences as the basis for its              The specific legislation reviewed is found in Appendix 5.
                    recommendations to Congress. During the reporting
                    period, the OIG reviewed legislation, regulations, policy,

                                                                                                                                   Bob Johnston, Trains Magazine
                    and procedures that could affect Amtrak and provided
                    comments both internally within, and to, the relevant
                    Congressional committees and staff.
                    During the semiannual period, the OIG performed
                    reviews of several pieces of pending legislation and
                    met with Congressional staff from House and Senate
                    Appropriations and Authorization committees to discuss
                    potential impacts that pending legislation would have on
                    both Amtrak’s operations as well as impact on the OIG
                    mission. The current six month period saw significant
                    congressional activity relevant to Amtrak. These activities
                    included the consideration of the Omnibus Appropriations
                    which funded both OIG and Amtrak for the reminder of
                    the fiscal year, and the passage of American Recovery
                    and Reinvestment Act of 2009 which included $5 million


    Office of
Inspector General
       10
                                                                                        Significant Audit Activities


       Procurement and
         Procurement  andManagement
                            Material                         require its personnel to comply with policy and provide
              Material Issues
            Management    Issues                             Material Management with properly authorized charge
                                                             out documents at the time material is taken from the
                                                             location with no exceptions to policy permitted.
Excessive Car Hire/Demurrage Expenses
Questioned Costs of $753,830                                 The OIG noted that the trend of increasing maintenance
Report #216-2007 – Issued 11/14/2008                         of way valuation which was 9.79 percent in FY08 and
                                                             decreasing inventory turnover from 1.33 percent in FY06
On August 8, 2007, while observing the annual inventory,
                                                             to 0.95 percent in FY07 to 0.83 percent in FY08 continued.
OIG noticed switch material on 11 CSX Transportation
                                                             This trend is caused by stock levels remaining consistently
flat cars at the Maintenance of Way Yard at Odenton,
                                                             too high from one year to the next. Audit recommended
MD. Further research revealed that the flatcars had
                                                             that Materials Management take steps to reduce stock
been at Odenton since February 13, 2007 and Amtrak
                                                             levels for items with an overstock condition.
had incurred between $36,200 and $86,880 in car
hire/demurrage expense for that one delivery. The OIG
                                                             CMI-Promex, Inc.
determined that the issue was material enough for
                                                             Questioned Costs of $16,504, Projected Savings of
further review.
                                                             $100,000
The OIG found that foreign freight railcars had excessive    Report #201-2009 – Issued 03/31/2009
retention times that resulted in unnecessary car hire/
                                                             At the request of Amtrak’s Procurement and Materials
demurrage costs to Amtrak of $753,830 over a four year
                                                             Management Department, the OIG performed a post
period between FY 2004 and FY 2007. The audit found a
                                                             award audit of the costs associated with the installation
lack of segregation of duties, which resulted in car hire/
                                                             of the Ridex ® miter rail system by CMI-Promex, Inc. The
demurrage expenses not being accounted for according
                                                             purpose of the OIG review was to verify the accuracy and
to generally accepted accounting principles and recorded
                                                             acceptability of the costs associated with the installation
in the incorrect accounts and avoidable interest charges
                                                             of the Ridex ® miter rail system on the Connecticut
of $19,215 were incurred for late payment of material
                                                             and Niantic River Bridges. The total purposed cost was
related delivery charges.
                                                             $656,000.
M/E Inventory Observations – Astoria &                       Based on the results of the OIG review, the OIG
Sunnyside Yard, NY                                           established questioned costs of $16,504, a 2.52 percent
Report #219-2007 – Issued 2/23/09                            error rate. Most of the questioned costs pertained to
                                                             direct labor, manufacturing overhead, and general and
A wall-to-wall inventory was observed for the Astoria
                                                             administrative expense. Procurement agreed with the
warehouse and Sunnyside Yard, NY Maintenance of
                                                             OIG questioned costs, along with the audited rates
Equipment locations on September 17, 2008. The
                                                             established for overhead and G&A.
OIG found that the inventories were generally taken
in accordance with instructions. Corrective actions          Procurement agreed to apply the audited rates against
suggested by OIG were accepted and addressed by              future projects with Promex, which, according to
the Astoria, NY, Supervisor; Material Control. The OIG       Procurement, will amount to approximately $4 million
observed that Sunnyside Yard, NY had issues with timely      over the next four years. Therefore, Amtrak should save
receipt of documentation from other mechanical areas         approximately $100,000 over the course of this project
with the Sunnyside Yard location and the variances were      and future projects utilizing the audited rates.
cleared subsequent to the OIG visit.
                                                             Review of Southern Pacific Transportation
Observation of FY2008 Annual Maintenance of                  Company (SP) Diesel Fuel and Fuel Handling
Way Inventory                                                Accounts
Report #217-2008 – Issued 12/23/08                           UP offers $305,000 as settlement for diesel fuel
                                                             questioned costs
The OIG observed the annual maintenance of way
                                                             Audit Report Number 505-2009 – Issued
physical inventory conducted by Amtrak’s Materials
                                                             03/18/2009
Management and Engineering Departments. The
audit found that the inventory was generally taken in        The OIG completed an audit of costs billed by the SP
accordance with instructions. However, the OIG found         for diesel fuel and fuel handling for the period January
that at the material stores withdrawals of large dollar      1, 1997 through December 31, 1999.  The purpose of
value stock were not being reported in a timely manner.      the audit was to determine whether monthly billings
Therefore, the OIG again recommended that Engineering        submitted by the SP for the subject accounts were
                                                                                                                               Office of
                                                                                                                           Inspector General
                                                                                                                                   11
    Significant Audit Activities


                    accurate, valid, reasonable, and in compliance with           Internal Use Computer Software Costs
                    the operating agreement and contract amendments               $1.66 million of $115 million or 2.9 percent of costs
                    between Amtrak and the SP.   As information, after the        improperly capitalized
                    merger of the SP into the Union Pacific Railroad (UP),        Audit Report Number 101-2008 – Issued 12/3/08
                    the UP became the designated railroad for handling all
                                                                                  The OIG performed an audit of the accounting for internal
                    SP-related findings.
                                                                                  use computer software. The objectives of this audit were
                    The OIG analysis revealed that for San Antonio, there         to determine if costs incurred from January 2005 through
                    were unexplained increases in the gallons billed for the      September 2007 for new or upgraded computer software
                    current audit period when compared to a comparable            developed or obtained for internal use were properly
                    prior audit period.  Based on the exceptions noted, the       classified by project managers as capital expenditures
                    OIG identified and presented a total of $455,314 in           or period expenses in accordance with Accounting
                    questioned costs to the UP.  After various discussions, the   Standards Executive Committee (AcSEC) of the American
                    UP offered $305,000 as settlement for the questioned          Institute of Certified Public Accountants Standard
                    costs identified.                                             Operational Procedures (SOP) 98-1.
                    The OIG is currently working with the UP to finalize          To determine if actual software expenditures were
                    the settlement letter language. The OIG recommended           being reviewed by management other than project
                    that management use the finalized settlement letter           managers for compliance with SOP 98-1 and if project
                    language to be sent to the UP to initiate the recovery of     managers were timely preparing and submitting project
                    the proposed settlement amount of $305,000 from the           completion forms to Capital Accounting when the project
                    railroad.                                                     was completed or the asset was ready for its intended
                                                                                  purpose. 
                       Accounting and Reporting
                           Accounting            Procedure
                                       and Reporting
                                                                                  The OIG found that project managers are miscoding
                                     IssuesIssues
                                Procedure
                                                                                  software expenditures. Software expenditures are being
                                                                                  capitalized when they should be expensed. The OIG
                    Food and Beverage Incentive Payment Review                    audit revealed that Capital Accounting’s review process
                    Possible Lost Revenue of $3,193,307                           identified and corrected more than $1.66 million in
                    Report #208-2007 – Issued 1/15/09                             miscoded software costs or 2.9 percent of the population
                                                                                  for the 22 projects the OIG tested. Miscoding occurred
                    The objectives of the OIG audit were to determine
                                                                                  because project managers have not been diligent in
                    whether the quarterly incentive payments to Amtrak’s
                                                                                  correctly coding costs relating to computer software
                    Food Service Provider were correct and to ascertain if
                                                                                  and the reviews by the project managers’ respective
                    Amtrak was receiving its share of credits due. The OIG
                                                                                  departments failed to catch coding errors.
                    reviewed the period January 1, 2007 through June 30,
                    2008. OIG auditors visited five commissaries in Boston,       The OIG recommended that departmental management
                    New York, Washington, Chicago, and Los Angeles on April       should monitor the  financial activity of the respective
                    30, 2008 to observe their physical inventory counting         departments’ project managers by reviewing the
                    process. The OIG visits determined that each commissary       monthly detailed project cost transaction reports. Capital
                    had high gross variances with the main count swings in        Accounting should continue to communicate the results
                    linens, support non-reusable, and support reusable.           of their monthly reviews of the department’s capital
                                                                                  project costs, so departmental managers can address
                    The OIG audit disclosed that Food and Beverage (F&B)
                                                                                  areas where reclassifications are required.
                    suppliers were not processing stock rebate credit requests
                    in a timely manner. When discussed with Amtrak F&B            The closeout process as currently documented on the
                    Management, stock rebate credit requests were prepared        Amtrak Intranet, the Capital Project Manager Financial
                    and credit requests were submitted resulting in additional    Management Requirements Manual  and Amtrak Policy
                    payments of $161,780 as of November 30, 2008.                 and Instruction Manual Policy Instruction 8.3.1, are not
                                                                                  reflective of current practices and needs to be updated.
                    The OIG calculated Amtrak condemnage costs of
                    $6,941,970 for the 24 month period January 1, 2006
                    through December 31, 2007, and discussed with F&B
                    Management the potential reported loss of revenue
                    mark-up of 46 percent amounting to $3,193,307 if
                    the items had been sold on Amtrak trains. The lack of
                    condemnage oversight was the primary cause of reduced
    Office of
                    savings to Amtrak.
Inspector General
       12
                                                                                       Significant Audit Activities


Amtrak Uniform Inventory                                     Transportation Certificate Database
Improved vendor contract enforcement is needed               Customer Relations database was incomplete and
Audit Report 106-2008 – Issued 1/30/09                       contained discrepancies
                                                             Audit Report Number 502-2008 – Issued 2/26/09
The OIG performed an audit of Amtrak’s Uniform
Inventory. The objectives of this audit were to determine    The OIG performed a review of transportation certificates
the existence and accuracy of Amtrak uniform inventory       (TCs) to determine whether Customer Relations issued
on hand at Fechheimer Brothers; review the process for       the TCs honored system-wide during the audit period
managing the Amtrak uniforms inventory by Amtrak             April 23, 2007 through April 30, 2007.  TCs are a customer
management and Fechheimer Brothers; and, determine           service recovery tool issued by Customer Relations to
that proper controls exist. Amtrak contracted Fechheimer     inconvenienced passengers on a case-by case basis as a
Brothers to manufacture and supply uniforms to certain       result of customer service-related issues. 
on-board and station employees.
                                                             The OIG review results indicated that Customer Relations
The OIG conducted a physical count and reconciliation of     database was incomplete and contained discrepancies.  
Amtrak uniforms with the perpetual inventory reports of      The OIG recommended that written policies, procedures
Amtrak uniforms at the Fechheimer Bothers’ warehouse         and/or guidelines be established to adequately document
on August 26-27, 2008. The inventory sampled for             changes to TC amounts, customer names, and reasons
verification by the auditors was 10,635 or 83 percent        for extending TCs.  The OIG further recommended that
of the 12,853 total number of items reported on the          Customer Relations supervisors sample and review
perpetual inventory records with a value of $468,974.        TCs generated to ensure compliance with established
The result of the inventory, comparing the physical count    policies, procedures, and/or guidelines.
to the perpetual inventory records was a difference of 20
units or approximately .19 percent of the total inventory.   Providence Station, Rhode Island Audit
OIG concluded that the inventory at Fechheimer Brothers      Report #301-2009 – Issued 12/ 22/08
was highly accurate.
                                                             In accordance with the Office of Inspector General-
In addition to the physical count, OIG reviewed the          Audits annual audit plan, the OIG performed a station
Amtrak Uniforms processes and related internal controls.     audit of the Providence, Rhode Island ticket office.  The
OIG found that inventory management of uniforms for          purpose of the OIG review was to: test for compliance
Amtrak employees needed to be improved. The levels of        with station accounting and reporting procedures; verify
the inventory items were not in line with the usage and      assigned working funds, ticket stock and other assets;
resulted in overstock of items that were not in demand       evaluate the safeguarding these assets; and, appraise
and stock outs of items in demand.                           the efficiency of station operations.
The over and under-stock positions occurred because          The OIG review indicated that the Providence Station
Operations Management did not enforce the provisions         ticket office and the baggage room were in general
of the contract and receive the needed reports from the      compliance with station accounting and reporting
vendor in order to make accurate stock level decisions.      procedures.  However, the OIG observed the following:
As a result, Amtrak employees may not have the required
                                                             H	Manually issued tickets were not always issued in
uniforms. Amtrak may incur avoidable costs when the
                                                               sequential order;
contract is terminated and Amtrak has to take possession
of the residual inventory.                                   H	Copies of manually issued tickets were not always
                                                               maintained;
The OIG recommended Operations Management establish
procedures and controls for establishing and maintaining     H	Manually issued tickets were not being recorded in the
stock levels; monitoring stock levels, safety stock and        Control Log, Form NRPC 277; and,
reorder points; and enforcing contractual compliance by
                                                             H	Invoices for the receipt of manually issued ticket stock
Amtrak and Fechheimer Brothers. Management needs
                                                               were not available for the OIG review.
to identify the cost of the uniform inventory which would
have to be reported as a contingent liability in the event   Management agreed with the findings and has taken
the contract is terminated.                                  appropriate corrective action.




                                                                                                                              Office of
                                                                                                                          Inspector General
                                                                                                                                 13
    Significant Audit Activities


                                       Contract Issues                                Management   Responses
                                                                                          Management          overOver
                                                                                                       Responses   180 Days
                                                                                       Old
                                                                                        180for Which
                                                                                            Days Old Corrective Action Has
                                                                                                     for Which Corrective
                                                                                         ActionNot
                                                                                                HasBeen
                                                                                                    Not Completed
                                                                                                        Been Completed
                    New Jersey Transit - Maintenance of Equipment
                    Services I n t e r i m
                    $777,394 in Under Billed Expenses                               Union Pacific Audit
                    Report #204-2008 – Issued 11/5/08                               $144,659 Excess Billings Identified
                                                                                    Audit Report 407-2004 – Issued 3/07/07
                    A primary objective of the OIG audit was to determine
                    whether Amtrak billed New Jersey Transit (NJT) in               The OIG has held several meetings with the railroad
                    accordance with the Maintenance of Equipment Services           to discuss resolution of outstanding unresolved audit
                    Agreement. Billable charges include direct labor costs,         issues. The OIG hopes to conclude its work in the next
                    labor additives, shop overhead, direct material costs and       reporting period.
                    material additives. NJT assumes a percentage of the costs
                    of the operation of the Sunnyside Yard car wash system.         Mass Transit Products, Inc. - Termination for
                                                                                    Default for Superliner I Overhaul
                    A secondary objective of this audit was to compare
                                                                                    Questioned Costs $63,184
                    actual overhead costs that Amtrak incurs to support the
                                                                                    Report 219-2005 – Response 1/25/06
                    maintenance services versus the fixed overhead rate
                    contained in the Agreement. Due to the significance of          The Procurement and Materials Management Department
                    the under billing to NJT, the OIG is issuing this interim       is still involved in ongoing settlement negotiations with
                    report. The OIG will complete its secondary objective of        the contractor and his suppliers and the OIG continue to
                    reviewing actual overhead costs at a later date.                monitor actions taken.
                    The OIG established that, as it related to the maintenance
                                                                                    Reviews of Southern Pacific Central States Line
                    of equipment services, Amtrak under billed NJT $777,394
                                                                                    Questioned costs not yet resolved
                    during fiscal periods 2006, 2007 and through June 2008.
                                                                                    Audit Report Number: 01-506 – Response
                    The OIG attributed the discrepancy to clerical errors, as
                                                                                    9/04/01
                    well as to a misunderstanding of the agreement terms.
                                                                                    Audit Report Number: 01-507 – Response
                    Review of Fuel Supply to Los Angeles by                         9/04/01
                    General Petroleum
                                                                                    Audit Report Number: 01-508 – Response
                    Non compliance with fuel related procedures and a
                                                                                    10/12/01
                    potential duplicate payment of $15,913 identified
                    Audit Report Number 503-2008 – Issued 2/06/09                   Audit Report Number: 01-509 – Response
                                                                                    10/12/01
                    The OIG completed a review of fuel supply to Los Angeles
                    by General Petroleum (GP) and the associated control            There are no significant developments to report since
                    environment for the period September 1, 2007 through            the last semi-annual report.  The OIG will continue to
                    March 31, 2008.   The OIG primary objectives were to            monitor.
                    determine whether GP’s fuel deliveries were in accordance
                    with the purchase order (PO) agreement; whether Amtrak’s
                                                                                     AUDIT STATISTICS
                    payments to the vendor were accurate and in compliance
                    with the PO provisions; and, whether management controls         Status of Audit Projects
                    over fuel receipts, invoicing, payments and dispersal of fuel    Audits in progress at 10/01/08	                    47
                    were adequate and effective.                                     Audit projects postponed or cancelled	              1
                                                                                     Audit projects started 	                           31
                    Overall, the OIG identified various areas of non compliance      Audit reports issued	                              13
                    with fuel-related procedures. Such areas included the            Audit projects in progress 3/31/09	                64
                    handling of a fuel sample result that did not meet all fuel
                    specifications; the resolution of delivery variances; and the    Audit Findings
                    reconciliation of fuel receipts, issues, and inventory.          Questioned costs	                         $1,477,025
                    Additionally, the OIG identified a potential duplicate           Unsupported costs	                                $0
                    payment in the amount of $15,913. The OIG recommended            Funds to be put to better use	            $4,049,848
                    that management review and update the respective diesel
                    fuel related procedures to ensure compliance with approved       Total	                                   $5,526,873
                    procedures. The OIG recommended that follow-up actions
    Office of       be taken to address the potential duplicate payment.
Inspector General
       14
                                                                      Significant Activities: Investigations


              Case Handling and                              468-5469 if outside Philadelphia. During working hours
             Sources of Allegations                          from 9:00 a.m. to 4:30 p.m., the OIG answer callers on
                                                             the HOTLINE system. During other hours or during those
The OIG receives allegations from various sources,           occasions when staff are away from the office, callers can
including     employees,      confidential    informants,    leave a message on the HOTLINE answering machine.
Congressional sources, federal agencies and third
                                                             People may write in confidentially to P.O. Box 76654,
parties. Presently, we are handling 330 investigations; in
                                                             Washington, DC 20013. The OIG received nine telephonic
the last six months, the OIG opened 78 cases and closed
                                                             HOTLINE complaints during this reporting period, which
63 cases.
                                                             is an increase from the previous reporting period. The
As set forth in the chart below, entitled “Sources of        majority of HOTLINE complaints received during this
Allegations,” employees and anonymous source referrals       reporting period were made by anonymous sources and
accounted for about 67 percent of the allegations during     private citizens.
this reporting period, with employees being the source of
31 of the 78 allegations, or 40 percent.                      PROSECUTIVE REFERRALS
The OIG received 21 telephone HOTLINE complaints              10/01/08 – 3/31/09
during this reporting period. The majority of HOTLINE
                                                              Referrals	                  U.S.	              Local/	            TOTAL
complaints received during this reporting period were
                                                              	                         Attorney	            State
from anonymous sources.
                                                              Criminal Cases
                        OIG Hotline                           Indictments	                    2	                 0	                 2
                                                              Convictions/Pleas	              5	                 0	                 5
The fraud OIG HOTLINE program has continued to                Pending*	                      25	                 0	                25
provide employees or third parties an opportunity to          Declinations	                   1	                 0	                 1	
report allegations of fraud, waste, abuse, and other
wrongdoing. Employees can access the HOTLINE 24 hours         TOTAL			                                                            33
a day by calling Amtrak Telephone System (ATS) number
728-3065 in Philadelphia and the toll free number (800)       Civil Cases
                                                              Suits Filed	                    0	                 0	                0
                                                              Settled	                        0	                 0	                0
 HOTLINE STATISTICS                                           Pending	                        0	                 0	                0	
 10/01/08 – 3/31/09 	                            TOTAL
                                                              TOTAL			                                                             0
 Hotline Complaints Received:	                      21
                                                              TOTAL CIVIL AND CRIMINAL		                                          33		
 Sources of Hotline Complaints:
 Anonymous Source	                                  10        *Some of these will be reflected under pending civil cases because
                                                              these matters are being handled by the United States Attorney’s
 Private Citizen	                                    9        Office in parallel proceedings. In cases where there have been
 Amtrak Employee	                                    1        convictions or pleas, we may be awaiting sentencing, restitution
 Confidential	                                       1        or other resolutions.


 Classification of Complaints:
 Non-criminal/Other	                                  6       Sources of Allegations
 Fraud	                                               6
                                                              10/01/08 – 3/31/09
 Abuse of Position	                                   2
 Criminal – Other	                                    2       Amtrak Employee . . . . . . . . . . . . . . . . . . . . . . . . .  31
 Waste	                                               2	      Former Amtrak Employee . . . . . . . . . . . . . . . . . . . .  2
 False Claims	                                        1       Anonymous Source  . . . . . . . . . . . . . . . . . . . . . . .  21
 Theft	                                               1       Confidential Informant . . . . . . . . . . . . . . . . . . . . . .  5
 Drug Violations	                                     1       Private Citizen . . . . . . . . . . . . . . . . . . . . . . . . . . . .  4
                                                              Referred by other Amtrak Department . . . . . . . . . .  2
 Complaints Referred To:                                      Referred by other OIG  . . . . . . . . . . . . . . . . . . . . .  10
 OI Field Offices	                                  12        Hotline . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  2
 Management	                                         7        Other . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1
 APD	                                                2        TOTAL  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 78
                                                                                                                                                   Office of
                                                                                                                                               Inspector General
                                                                                                                                                      15
    Significant Activities: Investigations


                     TYPES of Allegations                                                             Case Status of Investigations
                     10/01/08 – 3/31/09                                                               10/01/08 – 3/31/09	
                     Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25     Total Open Cases as of 10/01/08	                    315
                     Theft/Embezzlement . . . . . . . . . . . . . . . . . . . . . . . . 4             Closed Cases	                                       -63
                     Kickbacks . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2      Opened Cases	                                        78
                     False Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
                     False T&A Records . . . . . . . . . . . . . . . . . . . . . . . . . 5            Total Ongoing Cases as of 3/31/09	                 330
                     Other Criminal . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                     Waste . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8   Attendants. All of whom were terminated or resigned.
                     Abuse of Position . . . . . . . . . . . . . . . . . . . . . . . . . . 6         The scheme resulted in a loss to Amtrak of $124,686.
                     Mismanagement  . . . . . . . . . . . . . . . . . . . . . . . . . . 5            Sentencing is scheduled for April 17, 2009.
                     Conflict of Interest . . . . . . . . . . . . . . . . . . . . . . . . . 3
                     Administrative Inquiry . . . . . . . . . . . . . . . . . . . . . . 3            Wire Fraud Involving Voucher Refunds
                     Other Non Criminal . . . . . . . . . . . . . . . . . . . . . . . . 8            Loss of $31,928, restitution ordered.
                     Referral to Other Agency . . . . . . . . . . . . . . . . . . . . 5              An OIG investigation found that a Providence, Rhode
                     TOTAL  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 78           Island Travel Agency had an exceptionally large number
                                                                                                     of Amtrak refunds. A review of the issued tickets revealed
                                                                                                     that many of the refunds involved ticket exchanges and
                                                                                                     issuance of vouchers. An in depth review revealed
                                            Theft and Fraud                                          the vouchers were not valid resulting in a total loss to
                                            Theft and Fraud
                                                                                                     Amtrak of $31,928.
                    Previously Reported Investigation Further                                        As a result of the OIG investigation, the owner of the
                    Reviewed                                                                         agency pled guilty to one count of wire fraud, 18 U. S. C. §
                    Fraud of $175,486                                                                1343. He was sentenced to 27 months incarceration; 15
                    During the last reporting period the OIG detailed an                             of which will be served in a Federal Correctional Facility,
                    investigation of a former Amtrak Finance Manager                                 followed by 12 months of community confinement. He
                    responsible for the Manual Credit Card System (MCCS).                            was ordered to make full restitution of $571,000 to eight
                    The investigation found the Manager had refunded more                            airlines and Amtrak.
                    than $74,000 to his personal credit card accounts for
                    transactions for which he had not made any corresponding                             Waste, Abuse, and Mismanagement
                    purchases. After further review, the OIG determined that                             Waste, Abuse, and Mismanagement
                    the employee had refunded $103,486 to his personal
                    credit card accounts not identified earlier. The former                          Over Billing for Superliner Remanufacture
                    finance manager admitted that an IBM contractor was                              $34,000 in questioned costs
                    involved with the scheme.                                                        The OIG identified $34,000 in over billings by a vendor
                                                                                                     contracted to provide modules for the Superliner
                    The IBM contractor was indicted on 18 U. S. C. § 371                             Remanufacture project at Amtrak’s Beech Grove Facility.
                    (conspiracy), 18 U. S. C. § 1343 (wire fraud), 18 U. S. C.                       The over billings consisted of unauthorized charges for
                    § 666 (theft of federal programs funds), and 18 U. S. C.                         General and Administrative costs on a change order and
                    § 2 (aiding and abetting). A notice of forfeiture was                            erroneous charges related to scrap material.
                    held on March 17, 2009. The OIG is seeking $72,486 in
                    restitution from the former contractor.                                          Questionable Actions Leading to Purchase of
                                                                                                     Deluxe Dividing Door Partitions
                    Theft Scheme involving Train Provisioning                                        $10,669 in questioned costs
                    Management System Clerk and 42 Lead Service                                      The OIG identified questionable actions by the Senior
                    Attendants.                                                                      Contracting Agent which allowed the purchase of two
                    Loss $124,686; Restitution Sought                                                unused Deluxe Dividing Door Partitions totaling $10,669,
                    On January 12, 2009, a former Train Provisioning                                 as well as two possible underpayments of $12,210 to
                    Management System (TPMS) Clerk pled guilty in the                                the contractor. Currently, OI is awaiting management’s
                    United States District Court for the Northern District of                        response to the administrative report.
                    Illinois Eastern Division to the violation of Title 18 U. S.
                    C., § 666 (a) (1) (A) Theft or Bribery Concerning Programs
                    Receiving Federal Funds. The former employee, along with
                    another former TPMS Clerk, currently under indictment,
    Office of
Inspector General   orchestrated a theft scheme involving 42 Lead Service
       16
                                                                    Significant Activities: Investigations


Uncollected Private Railroad Car Fees                       The OIG reported the situation to management.
$7,000 in fees to be recovered                              Management has taken steps to lower the number
During September 2008, OIG agents regularly observed        of magazines distributed by the publisher, as well as
two private railroad cars sided on Amtrak property in the   exploring recycling options for the magazines that are
Northeast Corridor. A subsequent analysis of the Private    discarded, and improving the flaws in the distribution
Car Tariff account for the cars in question revealed that   system.
Amtrak was not collecting fees for the cars as outlined
in company policy entitled Conditions for Movement –                  Misuse of Fuel Credit Cards
Private Railroad Cars on Amtrak. Agents found systemic
problems in the manner the billing functions of the
                                                            Theft of Fuel
process were administered.
                                                            $5,760.39 in restitution sought
An analysis of the account in question revealed that        The OIG worked jointly with the Mercer County
nearly $7,000 in fees went uncollected. All deficiencies    Prosecutor’s office on an investigation regarding the
uncovered by OI Agents regarding private cars were          theft of fuel while utilizing an Amtrak fleet credit card. It
referred to management. Management reported that the        was discovered that an employee, had used a fleet credit
nearly $7,000 in fees not collected would be collected      card without authorization to purchase $5,760.39 worth
immediately, as well as taking other steps to remedy the    of fuel, while not on Amtrak property. The employee was
deficiencies outlines in the OIG referral.                  terminated and charged with a felony. Amtrak is seeking
                                                            the total amount in restitution.
Former Employee Overpaid
Loss of $3,964.40                                           Theft of Fleet Credit Cards
The Bakersfield California Station Manager allowed a        Loss of $83,711.16
Station Agent, who was attending a Corrections Academy      In the last Semiannual Report, the OIG reported on
after accepting employment with the California State        a joint investigation with the Government Services
Department of Corrections, to be placed on a Leave of       Administration (GSA) Office of Inspector General
Absence in order to use his sick leave, accrued overtime,   regarding the theft of fleet credit cards used to
and accrued vacation time. Ultimately, the Station Agent    purchase $83,711.16 in diesel fuel and gasoline. OIG’s
was overpaid $3,964.40 for sick time which should have      investigation revealed that Amtrak vehicles were being
been cashed out at a 50 percent rate and collected a        left unsecured with vehicle fleet credit cards inside. As
uniform allowance that he was not entitled to receive.      a result, Engineering implemented steps to address this
                                                            failure including disciplinary action steps.
The Station Manager was placed on suspension for 30
days without pay and OIG sent a copy of the investigative
                                                                    Conflict of Interest and Abuse
report to the Department of Corrections, Internal
Affairs Division to address the fraud perpetrated by its
employee. The discipline of a California Peace Officer      Falsification of Training Rosters
is considered privileged and confidential under Section     The OIG received an allegation that senior members of
1043 of the California Evidence Code and the result of      Amtrak’s Engineering Department were being placed on
that investigation is not available.                        attendance rosters for training classes that they did not
                                                            attend. The subsequent OIG investigation proved that
Amtrak’s Arrive Magazine Distribution                       senior members of Amtrak’s Engineering Department
Approximately 180,000 magazines never distributed           were in fact placed on rosters for classes that they did
In February 2008, the OIG received an allegation that       not attend.
there was an on-going pattern of significant waste
                                                            The OIG found that the class instructors were not
involving the distribution of Amtrak’s Arrive Magazine.
                                                            involved in the false entries but a senior member of the
The OIG learned through investigation that approximately
                                                            Amtrak Employee Development Department did place
200,000 copies of Arrive are distributed bi-monthly by
                                                            two senior members of Amtrak’s Engineering Department
the magazine’s publisher to various Amtrak facilities
                                                            on training rosters in an attempt to give the appearance
throughout the Northeast Corridor. Of the 200,000
                                                            that their training qualifications were up to date.
copies distributed, agents found that nearly 90 percent
of the magazines were never distributed, but actually       As a result of OIG’s investigation, the former Development
discarded and not recycled. The investigation identified    employee received a letter of reprimand and both senior
flaws in the magazine distribution system.                  members of the Engineering Department received verbal
                                                            warnings about their behavior. Amtrak’s Chief Operating
                                                            Officer reaffirmed that Amtrak’s Employee Development               Office of
                                                                                                                            Inspector General
                                                                                                                                   17
    Significant Activities: Investigations


                    Department will act independent of outside influences       deposits were recorded but were never received by the
                    from other Amtrak Departments.                              bank. The result of the investigation was the termination
                                                                                of the Station Agent. However, the OIG was unable to
                    Moynihan Station Project Manager                            gain an indictment on the Station Agent due to the lax
                    Irregularities                                              controls which were in place at the time. The OIG met with
                    The OIG conducted an investigation into the circumstances   management to advise management of the findings. As
                    surrounding the Moynihan Station Redevelopment              a result, management changed and improved procedures
                    Project including the memorandum of understanding           on station deposits throughout the Bay area.
                    (MOU) between Amtrak and the Moynihan Station
                                                                                In conjunction with the case outlined above, the OIG
                    Project developer, the employment of a project manager
                                                                                made inquiries into the overages/shortages reported
                    for the Moynihan Station, expenses incurred by the
                                                                                to management spanning five years and totaling over
                    project manager, an apartment lease in New York
                                                                                $13,337 which went uncollected. As a result of the OIG’s
                    associated with the project manager employment, and
                                                                                involvement and inquiry into these uncollected funds,
                    the use of lobbying firms or consultants associated with
                                                                                management informed OIG that all outstanding funds
                    the project.
                                                                                had either been collected or the employee responsible
                    In the OIG referral to The Amtrak Board of Directors,       was charged and disqualified.
                    OIG questioned the Executive Summary and Request
                    submitted to the Board to hire the project manager          Unsecured Cartons Led to Secure Shipments of
                    exclusively for the Moynihan Project at a salary of         Conductor Ticket Stock
                    $200,000, when the individual was already employed as       The OIG became involved in a case where a shipping carton
                    a contractor, being paid a contracting fee equivalent to    of conductor tickets sent in June 2007 was discovered.
                    $200,000 per year.                                          The tickets were unsecured and left unnoticed in the
                                                                                baggage area of Union Station, Washington, D.C. and only
                    The OIG questioned the creation of the senior E-Band
                                                                                discovered in August 2008. Eventually all identified tickets
                    position solely for this project, which has a history of
                                                                                were recovered and accounted for. In conjunction with this
                    stalling, as it has at the time of the investigation. Due
                                                                                issue, the OIG made recommendations to management
                    to the project being located in New York, but the project
                                                                                to better secure and ship conductor ticket stock. Those
                    manager being located in Washington, unnecessary
                                                                                recommendations are currently being implemented.
                    expenses were incurred. For the two months that the
                    project manager was acting as a private contractor,
                                                                                       Violation of Amtrak’s Standards
                    Amtrak’s expense policy regarding hotel rates was                  Violation of
                                                                                                 of Excellence
                                                                                                    Amtrak’s Standards
                    continuously violated.                                                       of Excellence
                    The investigation revealed that an apartment was leased
                                                                                False Statements
                    at Amtrak’s expense for the project manager’s use in lieu
                                                                                During this reporting period, the OIG conducted an
                    of hotel stays in New York. The apartment owner is a
                                                                                investigation into false statements and misrepresentations
                    family friend of the Amtrak vice president who supervised
                                                                                made to the OIG by a Beech Grove employee found to
                    the project manager Both the project manager and the
                                                                                have provided false information to the OIG during an
                    vice president used the apartment for personal use on
                                                                                investigation into the unauthorized sale of scrap material.
                    several occasions at no cost, a benefit not afforded to
                                                                                The employee waived formal investigation proceedings
                    other employees.
                                                                                and was assessed ten days suspension without pay.
                    As a result of the investigation, the project position
                                                                                The OIG issued a referral to the Dispute Resolution Office
                    was eliminated and the individual was terminated from
                                                                                and Amtrak Police Department regarding an Auto Train
                    employment.
                                                                                Food Specialist who made a false statement alleging
                                                                                that another employee had assaulted them. Due to the
                           Recommendations
                           Recommendations to to Enhance
                                                 Enhance                        unsubstantiated statement, the former Food Specialist
                            Efficiency and Effectiveness
                            Efficiency and Effectiveness                        was terminated.

                    Lax Procedures Led to Probable Theft of                     Weapons Violation
                    Receipts                                                    The OIG received and investigated an allegation that train
                    $13,337 recovered                                           and engine employees assigned to Reno were bringing
                    An OIG investigation revealed numerous instances            firearms onto Amtrak property as well as transporting
                    wherein deposits to the Salinas Station either had not      the weapons concealed on the person, and/or in carry-
                    been made or lesser amounts than indicated were             on bags. The OIG and Amtrak Police detectives jointly
    Office of       deposited. The OIG focused on two instances where           investigated the allegation and substantiated that
Inspector General
       18
                                                                    Significant Activities: Investigations


several employees had carried firearms on the train and     South Dakota, and Wyoming. Per TRA-97, Amtrak paid
others had brought and stored firearms at the Reno          each of the six states $23,230,000, which was 1 percent
Station with the knowledge of management. The result        of Amtrak’s tax refund. The TRA-97 and the subsequent
of the investigation was the removal from management        Surface Transportation Revenue Act of 1998 (STRA-
of an Assistant Superintendent, the termination of two      98) placed restrictions on the use of the monies by the
employees, and a 30-day suspensions for two other           six states. Generally, the monies were to be used for
employees.                                                  state transportation enhancements including aviation,
                                                            highway, mass transit, rail, and waterway purposes.
       Time and Attendance Reviews
       Time and Attendance Reviews                          Congressman Oberstar also expressed concern that South
                                                            Dakota used TRA-97 funds to replenish the SD State
Miscoding of Labor Hours                                    Aeronautic Fund after the purchase of a state airplane,
The OIG conducted an investigation into false               and may have violated the express provision of the TRA-97
statements and misrepresentations made to the OIG by        and STRA-98 laws.  The OIG investigation, which included
five management employees regarding the intentional         a review of SD TRA-97 purchases and the language of
miscoding of labor hours at the Beech Grove maintenance     TRA-97 and STRA-98, revealed that no violations of
facility. The OIG found that the Superintendent, an         Federal law existed.  The Audit of the remaining five states
Assistant Superintendent, the Budget Manager and two        in receipt of TRA-97 funds revealed no violations.
General Foremen made misrepresentations and/or false
statement to OIG Investigators and Auditors. As a result        2009 Presidential
                                                                2009  Presidential Inauguration
                                                                                   Inauguration
of OIG’s investigation, the Superintendent received a        Counter Surveillance Operation/Tactical
                                                             Counter Surveillance Operation/Tactical
salary reduction, was demoted and transferred, the                        Deployment
                                                                          Deployment
Assistant Superintendent retired, the Budget Manager
resigned after opting not to accept a demotion and          The OIG fielded teams of OIG law enforcement agents
transfer, and two General Foremen were suspended            to work various assignments related to the 2009 United
without pay for ten days.                                   States Presidential Inauguration. On January 17, 2009,
                                                            OIG agents worked Amtrak stations in Philadelphia,
Recovery of Unearned Wages                                  Wilmington, Baltimore, and Washington, D.C., providing
$170,200 recovered                                          counter-surveillance to protect President-elect Barack
An the OIG investigation resulting from an allegation       Obama and Vice President-elect Joseph Biden during
pertaining to Amtrak Engineering employees, found that      their historic train ride to the nation’s capital. OIG agents
New Jersey Engineering work gangs were submitting for       were employed in a tactical response mission alongside
and receiving pay for hours not worked. As a result of      the United States Secret Service, providing vehicles and
this allegation and the subsequent the OIG investigation,   rapid response along the train route.
the Engineering Department recovered money paid
to employees for time paid and not worked. More
                                                                                                                            Bob Johnston, Trains Magazine



importantly, the OIG investigation led to the significant
findings detailed below.
Amtrak Engineering argued the employees were
receiving duplicate wage payments because of an error
in the MAXIMO Payroll System which authorizes wage
payments for engineering employees. As a result of this
allegation and the subsequent the OIG investigation,
$170,200 was recovered from Amtrak Engineering
Department employees who were overpaid.

   Congressional Investigation Request

Congressman James L. Oberstar, Chairman of the
United States House of Representatives Committee on
Transportation and Infrastructure, requested that the
Amtrak Office of Inspector General investigate the use
of Taxpayer Relief Act of 1997 (TRA-97) funds by the
six States that were not served by Amtrak at the time.
The six states were Alaska, Hawaii, Maine, Oklahoma,                                                                                                            Office of
                                                                                                                                                            Inspector General
                                                                                                                                                                   19
    Significant Activities: Investigations


                    On January 19 and 20, 2009, OIG agents worked counter-      resulted in the distribution of 35 administrative referrals
                    surveillance missions in New York, Trenton, Philadelphia,   consisting of various findings covering theft and fraud to
                    Wilmington,       Baltimore,       Baltimore-Washington     failure to follow procedures. At the completion of this
                    International Airport Train Station, New Carrollton, and    reporting period, discipline had been assessed, based
                    Washington, D.C. OIG agents manned an OIG command           on the RPU referrals, for 30 LSAs with discipline ranging
                    post, maintained an event log, provided communications      from counseling to termination.
                    support, and assisted agents who were in the field.
                                                                                RPU-initiated Conductor Reviews
                    Agents provided further counter-surveillance and security
                                                                                RPU conducted preliminary reviews of conductor cash
                    at Washington Union Station during a pre-Inaugural
                                                                                fares to identify, analyze and document, then refer for
                    dinner for the president-elect on January 19, 2009, and
                                                                                continued handling, conductor reviews that indicate
                    during the Presidential Ball on the evening of January
                                                                                possible theft or misappropriation situations. During this
                    20, 2009. The OIG Agents worked very closely with the
                                                                                review period, the RPU conducted a random sampling
                    United States Secret Service, Amtrak Police Department,
                                                                                review based on 43 observations on trains in the
                    and Amtrak’s Office of Security Strategy and Special
                                                                                Northeast Corridor using Ten-Trip tickets.
                    Operations (OSSSO) teams, and numerous state and
                    local law enforcement entities with all missions being      The review revealed failure or omission by Conductors
                    successfully completed without incident.                    and Assistant Conductors to follow policy and procedure
                                                                                in several areas that attribute to a negative impact to
                                   Revenue Protection                           Amtrak’s cash position. As a result of an Administrative
                                   Revenue Protection
                                                                                Referral forwarded to the applicable Superintendents
                                                                                regarding these findings, all identified Conductors and
                    RPU-initiated Lead Service Attendant Reviews
                                                                                Assistant Conductors were counseled on their failures
                    During this reporting period, Revenue Protection Unit
                                                                                and remedial training was provided to crew base
                    (RPU) analyzed the applicable support documents for on
                                                                                personnel.
                    board food and beverage sales on 97 various Lead Service
                    Attendants (LSA). These LSA reviews coupled with the
                    completion of reviews from the previous reporting period




                                                                                                                                              Bob Johnston, Trains Magazine




    Office of
Inspector General
       20
                                                           Significant Inspections and Evaluations


      Amtrak
      Amtrak Maintenance
             Maintenance Operations
                         Operations                        philosophy, the OIG estimates maintenance costs can be
                                                           reduced more than $5 million per year.
OIG continuing to help with implementation of              In addition to this specific effort, the OIG is providing
previous recommendations                                   advice and assistance with process improvement
In September 2005, the OIG issued report E-05-04,          and manpower utilization for turnaround servicing at
which resulted from a year-long system-wide review of      Amtrak’s major stations. At Washington D.C. alone,
Amtrak’s Mechanical Maintenance Operations. In this        overtime expenditures have been reduced by more
report, the OIG recommended that Amtrak adopt a more       than $500,000 during this six month period. As Amtrak
modern maintenance philosophy based on Reliability-        implement these improvements at other locations the
centered Maintenance (RCM). An RCM-based program           OIG is hopeful that Amtrak will achieve similar results.
requires that all maintenance activities be supported by
sound technical and economic justifications. The OIG’s          Mechanical
                                                                Mechanical Maintenance
                                                                           Maintenance Servicing
                                                                                       Servicing
report recommended specific actions that Amtrak should                     Contracts
                                                                           Contracts
take to transition to RCM and to make the operations
more efficient. For the past three and a half years the
                                                           Under-Billing Commuter Agencies for Parts
OIG has been working with the Mechanical Department
                                                           $1,068,044.85 to be recovered
to help them implement the OIG recommendations.
                                                           While reviewing one of Amtrak’s contracts for
                                                           maintenance services in preparation for renegotiation, the
Implementation of Reliability-Centered
                                                           OIG discovered that Amtrak had been erroneously under-
Maintenance
                                                           billing one of the commuter agencies for maintenance
Although day-to-day administration of this initiative is
                                                           parts. Based on this discovery, Amtrak retroactively
now under the Chief Operating Officer (COO), the OIG
                                                           billed the commuter agency for $1,068,044.85 to cover a
remains engaged in an oversight role to help facilitate
                                                           five year period of under billing.
progress. The OIG continues to monitor implementation
and provides advice and recommendations to help
                                                             Financial Impact
                                                             Financial Impact of
                                                                              of Equipment
                                                                                 Equipment Delays
                                                                                           Delays
Amtrak overcome implementation challenges and help
insure that benefits are achieved.
                                                           Report E-09-02 – issued 3/25/09
Equipment Reliability Improvements                         OIG-developed tool to assess the benefits of investing in
The OIG continues to facilitate and support the            equipment reliability improvement
establishment of teams dedicated to conducting Root        As part of the OIG’s continuing effort to improve the
Cause Analyses into recurring equipment failures. The      efficiency and effectiveness of Amtrak’s rolling stock
teams that have been established have made significant     maintenance program, we noticed that Amtrak has
contributions to the improvements in reliability of        had a difficult time quantifying the monetary benefits
both the Acela trainsets and the High Horsepower           associated with investments in maintenance programs
(HHP) Locomotives. In calendar year 2008, the delays       that improved equipment reliability. This information is
associated with Acela equipment failures were reduced      essential to measure the financial benefits of proposed
by 7 percent from the previous year. Efforts to improve    maintenance initiatives and to prioritize programs vying
on these initial successes and expand to other fleets of   for scarce resources.
equipment are on-going.
                                                           The OIG study provides Amtrak a tool to assess
                                                           the economic benefits of investing in rolling stock
Mechanical Maintenance Facility
                                                           maintenance initiatives to improve equipment reliability.
Rationalization and Process Improvement
                                                           The OIG has analyzed the impact that equipment
Potential savings of more than $5 million; and, overtime
                                                           related train delays had on FY ’07 ticket revenue and
reduced by more than $500,000
                                                           have quantified the impact in terms of revenue loss
Some of the recommendations in the OIG report
                                                           per delay minute and total annual revenue loss by type
on Mechanical Maintenance Operations addressed
                                                           of equipment. This information should be helpful in
rationalizing Amtrak’s maintenance facilities and
                                                           determining which equipment maintenance programs to
streamlining Amtrak’s maintenance processes. These
                                                           focus on and in estimating the revenue gains that should
recommendations are in various stages of implementation.
                                                           be anticipated from any maintenance initiatives that
One of the improvement efforts that the OIG continues
                                                           positively impact equipment reliability.
to support is the consolidation of P42 Diesel Locomotive
maintenance to Chicago. Through consolidation and
the implementation of a new, streamlined maintenance
                                                                                                                            Office of
                                                                                                                        Inspector General
                                                                                                                               21
    Significant Inspections and Evaluations


                          Locomotive Camera Installations

                    Locomotive Camera Installation
                    OIG-initiated project expected to show significant
                    reduction in settlement costs
                    The OIG is continuing to advise and assist on a project
                    to install cab-mounted video cameras on all of Amtrak’s
                    locomotives. Freight railroads have shown that these types
                    of cameras have made a huge difference in their ability
                    to defend themselves in claims involving grade-crossing
                    accidents, thereby significantly reducing settlement costs
                    and court awards from these types of lawsuits.
                    This effort began as an OIG-initiated, limited-scope
                    project to demonstrate and learn about the technology.
                    Since then, cameras have been installed on more than
                    100 locomotives with another 100 to be completed by
                    the end of the fiscal year. So far, five collisions have      After the arrival of the new Vice President of Procurement,
                    been captured by the cameras, clearly showing the cause       this initiative was transitioned into an overall continuous
                    of the incidents. The installation on the rest of Amtrak’s    improvement effort solely managed within the current
                    locomotives is planned to follow in FY 2010.                  Procurement and Materials Management Department.
                                                                                  The OIG agreed to provide limited additional support
                     Procurement                                                  through May of 2009. At the conclusion of OIG
                     Procurement and
                                 and Material
                                     Material Supply
                                              Supply Chain
                                                     Chain                        involvement, the OIG will produce a report that will
                                 Management
                                 Management                                       document the results achieved through this initiative
                                                                                  and make recommendations on areas where additional
                    Alstom Parts Contract                                         opportunities for improvement are available.
                    $200,000 refunded
                    Amtrak entered into a contract with Alstom TLS in                Amtrak’s Right-of-Way
                                                                                     Amtrak’s Right-of-Way Maintenance
                                                                                                           Maintenance
                    2006 to supply and manage the parts inventory for the
                    Acela trainsets. This contract has an estimated value
                    of close to $200 million over the five-year term. As          Amtrak’s Right-of-Way Maintenance
                    reported previously, the OIG questioned whether Amtrak        Performance and costs benchmarked against European
                    was getting proper credit for components returned             Railroads
                    to inventory after bench testing. Based on the OIG’s          As reported in the last semiannual, the OIG has been
                    inquiry, Amtrak received a credit of $2,495,137.20 for        involved in a multi-year evaluation of the efficiency
                    overcharges during the period of September 2007 to            and effectiveness of Amtrak’s right-of-way (ROW)
                    February 2008. Since the last semiannual, Alstom and          maintenance programs. We recently completed an
                    Amtrak have agreed on a new pricing methodology for           extensive comparison of Amtrak’s performance and costs
                    bench test services, which has resulted in a further refund   to that of several European rail passenger systems, which
                    by Alstom of $200,000 for payments made from March            included site visits to discuss best practices with ROW
                    2008 to August 2008.                                          maintenance companies in Sweden, Germany, Austria,
                                                                                  Switzerland, Great Britain, and the Netherlands. The
                    Mechanical Supply Chain Effectiveness                         OIG is in the process of completing our report and will
                    At the request of the previous Vice President of              report in detail on our findings and recommendations in
                    Procurement, the OIG sponsored and helped to                  the next semiannual report.
                    facilitate a major initiative to improve the efficiency and
                    effectiveness of the material supply chain in providing
                    parts and materials for Rolling Stock maintenance. Cross
                    functional teams were established to evaluate existing
                    practices in demand planning, supplier management,
                    order fulfillment and warranty management. Facilitated
                    by industry experts from the Thomas Group, the teams
                    reviewed existing processes and revised them to more
                    align with industry best practices.
    Office of
Inspector General
       22
                                                                Significant Inspections and Evaluations


  Comparison of Amtrak’s Infrastructure                              Fleet Utilization of Rolling Stock
    Labor Cost to European Railroad
               Averages
                                                               Increasing Revenue for Acela
                                                               Opportunities for up to $9 million of additional revenue
Report E-09-01 – Issued 3/24/09                                identified
Reasons for Amtrak’s higher labor costs identified             In August 2008, the OIG started a multi-year evaluation
As reported above, Amtrak’s OIG is in the process of           of how well Amtrak plans for and utilizes its fleet of
preparing a report that compares Amtrak’s infrastructure       rolling stock. Phase one of this evaluation reviewed how
maintenance expenses to that of a sample of European           Amtrak projects its market demand, how it performs yield
Rail Passenger Systems. During the cost comparison phase       management, and how these two functions relate to the
of this evaluation, it was determined that the annual cost     assignment of equipment to trains and routes. Initially
of an Amtrak infrastructure worker is more than twice          the OIG focused on the utilization of Amtrak’s Acela fleet.
as much as the average European infrastructure worker.
                                                               Based on the OIG initial work, the OIG discovered
When the OIG briefed these preliminary results to the
                                                               opportunities where Amtrak could increase revenue on
Amtrak President and CEO, he questioned why this was so.
                                                               the Acela service with only a marginal increase in costs.
The report explains the primary reasons Amtrak labor           The OIG presented these findings to the Acela Executive
costs are so much higher than that of the average              Oversight Committee. In both cases the committee
European worker. These reasons are that the Amtrak             approved the recommendations and actions are
worker earns significantly more in extraordinary wages         progressing to increase the number of trains operating
(overtime); and that, Amtrak pays more than four times         on the weekends and to take actions to optimize
more for employee benefits each year. As a percentage          ridership levels during peak demand periods. Based
of the total difference between Amtrak and European            on FY08 revenues, OIG estimates these actions, when
labor costs, 51 percent of the variance in labor cost is       fully implemented, could result in up to $9 million in
due to Amtrak’s higher benefit expenses, 30 percent due        additional revenue annually.
to higher extraordinary wages, and 19 percent due to
                                                               The OIG is in the process of documenting its initial
higher base wages. A major contributing factor to the
                                                               findings and then will start to focus the OIG analysis on
higher base wages and extraordinary wages is that, on
                                                               the Northeast Corridor Regional fleet of equipment.
average, Amtrak infrastructure workers work 32 percent
more hours per year, including six times more overtime
                                                                      Revenue Protection Initiatives –
hours, than Amtrak’s European counterparts.                           Revenue Protection Initiatives –
                                                                       OIG continuing involvement
                                                                       OIG continuing involvement
         Human
         Human Capital
               Capital Management
                       Management
                                                               Onboard Service Oversight
                                                               Amtrak employees handle approximately $110 million
Human Capital Management
                                                               annually in on-board ticket and food and beverage sales.
Is Amtrak prepared for the Human Capital challenges
                                                               A number of these dollars are continually at risk with
facing it in the next five years?
                                                               respect to fraudulent employee behavior. Thus, the OIG
This evaluation was initiated to evaluate how effectively
                                                               continues to work closely with the Transportation, Service
and efficiently Amtrak manages its Human Capital
                                                               Operations and the Marketing and Product Management
throughout the company and how well it is prepared
                                                               departments to advise on conductor and onboard service
for the numerous Human Capital challenges facing it
                                                               (OBS) remittance policies, OBS accounting policies and
over the next five years. As part of this, the evaluation
                                                               procedures, pro-active strategies for safeguarding
examined how Amtrak identifies its manpower needs
                                                               Food and Beverage (F&B) inventory, and commissary
and then how the company recruits, hires, develops and
                                                               operations.
retains the required employees with the necessary skills
to accomplish Amtrak’s mission, goals, and objectives.         The OIG participates directly on a number of steering
                                                               teams – the Point of Sales Change Management Working
The field work and benchmarking have been completed
                                                               Group, the F&B Loss Prevention Working Group, the City
and the team is currently drafting their final report, which
                                                               of New Orleans (CONO) Pilot Team and the Amtrak
will be detailed in the next Semiannual Report.
                                                               Revenue Procedures Oversight and Protection Committee
                                                               (ARPOPC).



                                                                                                                                 Office of
                                                                                                                             Inspector General
                                                                                                                                    23
    Significant Inspections and Evaluations


                    Harassment and Intimidation Complaints

                    Harassment and Intimidation
                    Three allegations reviewed with one substantiated
                    During this reporting period, the OIG concluded its
                    review of three allegations received during the previous
                    reporting period. The OIG issued two letters of no
                    findings, whereby the OIG concluded that the employee
                    was not harassed or intimidated by management as
                    defined by FRA 49 CFR 225.33.
                    The OIG issued one letter of finding to senior management
                    whereby the OIG concluded that even though an injured
                    employee received the proper medical treatment, his
                    manager engaged in behavior that could be construed
                    as “harassing or intimidating conduct by an employee
                    that is calculated to discourage or prevent any individual
                    from receiving medical treatment.” Management agreed
                    with the OIG findings and immediately addressed these
                    concerns administratively with the employee’s manager.




    Office of
Inspector General
       24
                                                                                                                                                   Performance Measures


FY 2009 Performance Measures
10/01/08 – 3/31/09
Audit Results	                                                                                                                                                Total
Congressional Testimony . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Costs Questioned/Funds to be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $5,526,873
Management Decisions to Seek Recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  $1,372,776

Investigative Results 	                                                                                                                                                     Total
Indictments/Informations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Convictions  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Fines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Court Ordered Restitutions/Civil Judgments/Administrative Restitution  . . . . . . . . . . . . . . . . . . . . . . . . . . .  $582.437
Recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Years Sentenced . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1.25
Years Probation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Years Supervised Release . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Hours of Community Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Personnel Actions – Termination from Employment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2 1
Personnel Actions – Other Discipline . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Debarments and Other Administrative Action  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . n/a
Hotline Complaints Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Hotline Complaints Investigated by OIG  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Hotline Complaints Referred to Operating Administrations or Other Agencies  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


FY 2009 Advisory Functions
10/01/08 – 3/31/09
Advisory Functions	                                                                                                                                              Total
FOIA Requests Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
FOIA Requests Processed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
Legislation Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Regulations Reviewed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




                                                                                                                                                                                          Office of
                                                                                                                                                                                      Inspector General
                                                                                                                                                                                             25
Appendices




       Office of
   Inspector General
          27
    Appendix 1


                    office of Inspector General
                    Audit Reports Issued with Questioned CostS
                    10/1/08 – 3/31/09
                    	                                      Number	   Questioned Costs	   Unsupported Costs
                    A.	For which no management decision
                       has been made by the commencement
                       of the reporting period.	                6	        $1,086,633	                  $0

                    B.	Reports issued during the
                    	 reporting period.	                        6	        $1,477,025	                  $0

                    Subtotals (A + B)	                         12	        $2,563,658	                  $0


                    LESS

                    C.	For which a management decision
                    	 was made during the reporting period.	  7
                    	 (i) dollar value of recommendations
                    	 that were agreed to by management.		                $1,372,776	                  $0
                    	 (ii) dollar value of recommendations
                    	 that were not agreed to by management.		              $126,566	                  $0

                    D.	For which no management decision
                    	 has been made by the end of the
                    	 reporting period.	                        5	        $1,064,316	                  $0




    Office of
Inspector General
       28
                                                                               Appendix 2


office of Inspector General
Audit Reports Issued with funds to be put to better use
10/1/08 – 3/31/09
	                                                    Number	    Dollar Value
A.	For which no management decision
   has been made by the commencement
   of the reporting period.	                               1	   $1,300,000

B.	Reports issued during the
	 reporting period.	                                      13	   $4,049,848

Subtotals (A + B)	                                        14	   $5,349,848


LESS

C.	For which a management decision
	 was made during the reporting period.	  2
	 (i) dollar value of recommendations
	 that were agreed to by management.		                          $3,966,352
	 (ii) dollar value of recommendations
	 that were not agreed to by management.		

D.	For which no management decision
	 has been made by the end of the
	 reporting period.	                                       2	   $1,383,496




                                                                                      Office of
                                                                                  Inspector General
                                                                                         29
    Appendix 3


                    Office of inspector General
                    detailed listing of all issued audit reports
                    10/1/08 – 3/31/09
                    Date	        Report	 Report Title	                              Questioned	    Unsupported	    Funds to be Put
                    Issued	      Number		                                                Costs	          Costs	      to Better Use

                    12/3/2008	 101-2008	 Internal Use Computer Software Costs	              $- 	            $- 	                $-
                    10/1/2008	 102-2007	 Accident/Incident Reporting to FRA	                $- 	            $- 	                $-
                    1/30/2009	 106-2008	 Amtrak Uniform Inventory	                          $- 	            $- 	                $-
                    3/31/2009	 201-2009	 CMI Promex, Inc. B 073 14595	              $16,504.00 	            $- 	       $83,496.00
                    11/5/2008	 204-2008	 New Jersey Transit - Maintenance	         $777,394.00	             $-	                 $-
                    		                   of Equipment Services
                    1/15/2009	 208-2007	 Food & Beverage Incentive	                $161,780.00	             $-	     $3,193,307.00
                    		                   Payment Review
                    11/14/2008	 216-2007	 Car Hire/Demurrage Expenses	              $13,849.00 	            $- 	     $773,045.00
                    12/23/2008	 217-2008	 FY 2008 MW Inventory Observation	                 $- 	            $- 	                $-
                    2/23/2009	 219-2008	 Cycle Inventory Observation -	                     $- 	            $- 	                $-
                    		                   Astoria, NY
                    12/22/2008	 301-2009	 Providence Station Audit	                         $- 	            $- 	                $-
                    2/26/2009	 502-2008	 Stations - Transportation Certificates	            $- 	            $- 	                $-
                    2/6/2009	 503-2008	 Fuel Supply to LAX -	                       $52,184.00 	            $- 	                $-
                    		                  General Petroleum
                    3/18/2009	 505-2009	 Southern Pacific Transportation	          $455,314.00 	            $- 	                $-
                    		                   Company (SP)-Diesel Fuel and
                    		                   Fuel Handling, Jan 1997-Dec 1999
                    TOTALS			                                                      $1,477,025 	             $- 	      $4,049,848




    Office of
Inspector General
       30
                                                                          Appendix 4


OFFICE OF INSPECTOR GENERAL
SUMMARY OF REPORTS TO THE PRESIDENT OF AMTRAK CONCERNING INFORMATION OR
ASSISTANCE UNREASONABLY REFUSED OR NOT PROVIDED
10/1/08 – 3/31/09
Nothing to report this period.




                                                                                 Office of
                                                                             Inspector General
                                                                                    31
    Appendix 5


                    OFFICE OF INSPECTOR GENERAL
                    REVIEW OF LEGISLATION AND REGULATIONS
                    10/1/08 – 3/31/09
                    Section (4)a of the Inspector General Act of 1978, as amended, provides that the Inspector General shall “review
                    existing and proposed legislation and regulations relating to programs and operations of such establishment and
                    to make recommendations in the semiannual reports …concerning the impact of such legislation or regulations
                    on the economy and efficiency in the administration of programs and operations administered or financed by such
                    establishment or the prevention and detection of fraud and abuse in such programs and operations.”
                    Furthermore, Section 4(a) states that it is “the duty and responsibility of the Inspector General “to recommend policies
                    for, and to conduct, supervise, or coordinate relationships between such establishment and other Federal agencies,
                    State and local governmental agencies, and nongovernmental entities with respect to (A) all matters relating to the
                    promotion of economy and efficiency in the administration of, or the prevention and detection of fraud and abuse in,
                    programs and operations administered or financed by such establishment, or (B) the identification and prosecution
                    of participants in such fraud or abuse.”
                    In order to enhance the OIG’s ability to meet these Section (4)a, responsibilities, the OIG created during the last
                    reporting period a new group, Management and Policy, to ensure compliance with current and emerging legislation,
                    and government regulations, directives, and mandates. Management and Policy is the primary liaison with the
                    Government Accountability Office, and other government departments and agencies.
                    In addition, the OIG has an agreement with Amtrak’s Government and Public Affairs Department that allows the OIG
                    to review and comment on the company’s annual grant and legislative request, and other legislative and regulatory
                    concerns of the company. Existing legislation and regulations are reviewed, as necessary, as a part of every audit,
                    inspection and evaluation, and investigation.
                    During the period covered by this report the OIG continued to cooperate with and monitor Congressional efforts to
                    draft and enact High Speed Rail legislation, as well as other legislation intended to provide additional funding for
                    Amtrak. The specific legislation reviewed was:
                    Public Law 111-8
                    The “Omnibus Appropriations Act, 2009” passed by Congress and signed by the President in March of 2009, providing
                    appropriations for all agencies and activities that would be covered by the regular fiscal year 2009 appropriations
                    bills. The Omnibus Appropriations Act funds the OIG at our fiscal year 2008 level of $18,50,000 for 2009 or $1,500,000
                    below the newly authorized level for FY 2009. The OIG continues to work with the Appropriations Committees to
                    ensure that we are fully funded at our authorized level in order to fulfill our mandate responsibilities.
                    Public Law 111-5
                    “American Recovery and Reinvestment Act of 2009” commonly referred to as the stimulus bill passed both chambers
                    of Congress and was signed by the President in February of 2009. H.R.1 provided $1.3 Billion for Amtrak, $845 million
                    for Capital Grants, $450 million for Security Grants and $5 million for the Office of Inspector General.
                    Public Law 110-432
                    The “Passenger Rail Investment and Improvement Act of 2008” was signed by the President on October 16, 2008.
                    PRIIA was the first Amtrak reauthorization in 12 years and the first to include a separate five year authorization for
                    the Amtrak Office of Inspector General. The reauthorization also included language that clearly restated Amtrak’s
                    authority to use the General Service Administration for all services provided by GSA to other Federal Departments
                    under sections 502(a) and 602 of title 40, United States Code.




    Office of
Inspector General
       32
                                                                                                                            Appendix 6


GLOSSARY OF AUDIT TERMS AND ABBREVIATIONS
The terms the OIG use in reporting audit statistics are defined below:
Questioned Cost -- Cost or expenditure of funds for an intended purpose that is unnecessary, unreasonable, or an
alleged violation of Amtrak’s corporate policy or procedure.
Unsupported Cost -- Cost that is not supported by adequate documentation at the time of the audit.
Funds to Be Put to Better Use -- Funds identified in an audit that could be used more effectively by taking greater
efficiency measures.
Management Decision -- Management’s evaluation of the OIG audit finding and its final decision concerning
agreement or non agreement with the OIG recommendation.
Abbreviations/acronyms used in the text are defined below:
AcSEC	    Accounting Standards Executive Committee of the      MOU	     Memorandum of Understanding
	         American Institute of Certified Public Accountants   NRPC		National Railroad Passenger Corporation (Amtrak)
Amtrak	   National Railroad Passenger Corporation              NJT 	    New Jersey Transit
APD	      Amtrak Police Department                             OBS	     Onboard Service
APP	      Appendix                                             OIG	     Office of Inspector General
ARPOPC	   Amtrak Revenue Procedures Oversight and              OSSSO	 Office of Security, Strategy and Special Operations
	         Protection Committee                                 OTP 	    On Time Performance
ARRA	     American Recovery and Reinvestment Act of 2009       PO	      Purchase Order
CEO	      Chief Operating Officer                              P.L.	    Public Law
CFR	      Code of Federal Regulations                          PRIA	    Passenger Rail Investment and Improvement Act
COO	      Chief Operating Officer                              	        of 2008
CONO	     City of New Orleans                                  RCM	     Reliability-centered Maintenance
DIG	      Deputy Inspector General                             ROW	     Right-of-way
F&B	      Food and Beverage                                    RPU	     Revenue Protection Unit
FRA	      Federal Railroad Administration                      SNS	     Salinas Amtrak Station
FY	       Fiscal Year                                          SOP	     Standard Operating Procedures
GAAP	     Generally accepted accounting principles             SP	      Southern Pacific
G&A	      General and Administrative                           STRA-98	 Surface Transportation Revenue Act of 1998
GP	       General Petroleum Corporation                        TC	      Transportation Certificates
GSA	      Government Services Administration                   TPMS 	 Train Provisioning Management System
HHP	      High Horse Power                                     TRA-97	 Taxpayer Relief Act of 1997
HR	       Human Resources                                      UP 	     Union Pacific
LSA	      Lead Service Attendant                               U.S.C.	 United States Code




                                                                                                                                   Office of
                                                                                                                               Inspector General
                                                                                                                                      33
    Reporting Requirements Index


                    INDEX OF REPORTING REQUIREMENTS PURSUANT TO THE INSPECTOR GENERAL ACT
                    AMENDMENTS OF 1988 (P.L. 100-504)

                    Topic	               Reporting Requirements	                                                             Page

                    Section 4(a)(2)	     Review of Legislation and Regulations 	                                            10, 32

                    Section 5(a)(1)	     Significant Problems, Abuses, and Deficiencies 	                                    11-24

                    Section 5(a)(2) 	    Recommendations for Corrective Action to Significant Problems 	                     11-14

                    Section 5(a)(3) 	    Previous Reports’ Recommendations for Which Corrective Action
                    	                    Has Not Been Completed	                                                                14

                    Section 5(a)(4) 	    Matters Referred to Prosecutive Authorities 	                                          15

                    Section 5(a)(5) 	    Information or Assistance Refused or Not Provided 	                                    31

                    Section 5(a)(6) 	    Audit Reports Issued in This Reporting Period 	                                        30

                    Section 5(a)(7)	     Summary of Significant Reports 	                                                    11-24
                    Section 5(a)(8)	     Audit Reports with Questioned Costs 	                                               11-14

                    Section 5(a)(9) 	    Audit Reports with Recommendations That Funds Be Put to Better Use 	                12-14

                    Section 5(a)(10) 	   Previous Audit Reports Issued with No Management Decision Made by
                    	                    End of This Reporting Period	                                                       11-14

                    Section 5(a)(11) 	   Significant Revised Management Decisions 	                                11-14, 18, 21-23

                    Section 5(a)(12) 	   Significant Management Decisions with Which the OIG is in Disagreement	               n/a




    Office of
Inspector General
       34
                                                                                                             Tell Us About It


Stop Fraud, Waste, Mismanagement, and Abuse
Who pays? You pay. Act like it’s your money…it is!

                                                  Tell Us About It
Maybe you are aware of fraud, waste, mismanagement, or some other type of abuse at Amtrak. Amtrak’s Office of
Inspector General has a toll free hotline number for you to call. You can write to the OIG.
The OIG will keep your identity confidential. If you prefer, you can remain anonymous. You are protected by law from
reprisal by your employer.


                                                Call the hotline:
Nationwide (800) 468-5469
Philadelphia (215) 349-3065 or ATS 728-3065

                                                     Write to us:
Inspector General
P.O. Box 76654
Washington, DC 20013-6654
      National Railroad Passenger Corporation
                 Office of Inspector General
10 G Street, NE, Suite 3W-300, Washington, DC 20002-4285


  Amtrak is a registered service mark of the National Railroad Passenger Corporation.
